APPENDIX A

(

USCA Case #20-7074

Filed: 01/04/2021

Document #1878193

ffinxitb

Page 1 of 2

(Enurt oi Appeals

For The District of Columbia Circuit

September Term, 2020

No. 20-7074

1:20-cv-01598-UNA
Filed On: January 4, 2021
Louis A. Banks and DB, Minor,
Appellants
v.
District of Columbia, et al.,
Appellees

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
BEFORE:

Pillard and Rao, Circuit Judges, and Sentelle, Senior Circuit Judge
JUDGMENT

This appeal was considered on the record from the United States District Court
for the District of Columbia and on the brief filed by appellant. See Fed. R. App. P.
34(a)(2); D.C. Cir. Rule 34(j). It is
ORDERED AND ADJUDGED that the district court’s June 29, 2020 order
dismissing appellant’s complaint, and the district court’s July 29, 2020 order denying
appellant’s motions to reopen the case and amend the complaint, be affirmed. The
district court correctly concluded that the complaint failed to meet the minimum pleading
standards of Federal Rule of Civil Procedure 8(a) and Ashcroft v. Iqbal. 556 U.S. 662,
678 (2009). The district court did not abuse its discretion in denying appellant’s motion
to reopen the case and to amend the complaint. See Peyton v. DiMario, 287 F.3d
1121,1125 (D.C. Cir. 2002) (district court's denial of motion for relief pursuant to
Federal Rule of Civil Procedure 59(e) reviewed for abuse of discretion); Hettinga v.
United States, 677 F.3d 471,480 (district court did not abuse discretion in denying
motion to amend complaint where amendment would have been futile).

USCA Case #20-7074

Filed: 01/04/2021

Document #1878193

Page 2 of 2

pinxt&b J&txtes (Enurt of appeals
For The District of Columbia Circuit

September Term, 2020

No. 20-7074

Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

/s/
Daniel J. Reidy
Deputy Clerk

^ntteir

(Kouri ai appeals

For The District of Columbia Circuit

No. 20-7074

September Term, 2020
1:20-cv-01598-UNA
Filed On: March 29, 2021

Louis A. Banks and DB, Minor
Appellants
v.
District of Columbia, et al.
Appellees

BEFORE:

Pillard and Rao, Circuit Judges, and Sentelle, Senior Circuit Judge
ORDER

Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Michael C. McGrail
Deputy Clerk

FILED
6/29/2020
Clerk, U.S. District & Bankruptcy
Court for the District of Columbia

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LOUIS A. BANKS etal,
Plaintiffs,
v.
DISTRICT OF COLUMBIA et ai,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No. 20-1598 (UNA)

MEMORANDUM OPINION
This matter is before the Court on its initial review of plaintiff s pro se complaint, ECF
No. 1, and application for leave to proceed in forma pauperis, ECF No. 2. The Court will grant
the in forma pauperis application and dismiss the case because the complaint fails to meet the
minimal pleading requirements of Rule 8(a) of the Federal Rules of Civil Procedure.
Complaints filed by pro se litigants are held to less stringent standards than those applied
to formal pleadings drafted by lawyers. See Haines v. Kerner, 404 U.S. 519, 520 (1972). Still,
pro se litigants must comply with the Federal Rules of Civil Procedure. Jarrell v. Tisch, 656 F.
Supp. 237,239 (D.D.C. 1987). Rule 8(a) requires that a complaint contain a short and plain
statement of the grounds upon which the Court's jurisdiction depends, a short and plain statement
of the claim showing that the pleader is entitled to relief, and a demand for judgment for the
relief the pleader seeks. Fed. R. Civ. P. 8(a). This standard aims to give fair notice to each
defendant of the claims being asserted sufficiently to prepare a responsive answer, launch an
adequate defense, and determine whether the doctrine of res judicata applies. Brown v.
Califano, 75 F.R.D. 497, 498 (D.D.C. 1977). In addition, a “complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft
l

v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell At!. Corp. v. Twombly, 550 U.S. 544, 570
(2007)).

Plaintiff is a District of Columbia resident who is suing on behalf of himself and his
minor child. See Compl. Caption. The complaint contains a long list of defendants, see Compl.
at ECF pp. 2-3, 4, and conclusory statements, but no discernible allegations of fact. Moreover,
the complaint does not comply with the local rules of this Court, requiring “[t]hose filing pro se
in forma pauperis [to] provide in the caption the name and full residence address or official
address of each party.” LCvR 5.1(c)(1). Therefore, this case will be dismissed by separate
order.

SIGNED: EMMET G. SULLIVAN
UNITED STATES DISTRICT JUDGE
DATE: June 29, 2020

2

APPENDIX B

3fn tl)t (Hnitetr states* Ccurt of Jfcberal Claims;
\
)
)
)

LOUTS A. BANKS,ofD.B., a
minor,

■)

Plaintiff,

No. 19-334C

)
)
)
)
)

v.
THE UNITED STATES,

Filed June 20, 2019

)
)
)

Defendant.

ORDER
On June 14, 2019, the Clerk’s Office received a motion for default judgment and a
declaration in support thereof from plaintiff in the above-captioned matter. Neither of these
documents included proof of service, pursuant to Rule 5.3 of the Rules of the United States Court
•J

of Federal Claims. And so, the Court WAIVES the defect in plaintiffs proof of service and
DIRECTS the Clerk’s Office to FILE plaintiffs motion for default judgment and declaration in
support thereof.
IT IS SO ORDERED.
!\

n;
/

/,

^YDIA KAY GRftGG&Bt
Judge

K. 3

